TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                    Report on the Audit of Adequacy and
                    Compliance of Disclosure Statement
                Revision Number 4, Effective January 1, 2005



                                         September 2005

                             Reference Number: 2005-1C-178




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Web Site          | http://www.tigta.gov
                                                DEPARTMENT OF THE TREASURY
                                                     WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                             September 29, 2005


 MEMORANDUM FOR DAVID A. GRANT
                DIRECTOR OF PROCUREMENT
                INTERNAL REVENUE SERVICE




 FROM:                           Daniel R. Devlin
                                 Assistant Inspector General for Audit (Headquarters Operations
                                 and Exempt Organizations Programs)

 SUBJECT:                        Report on the Audit of Adequacy and Compliance of Disclosure
                                 Statement Revision Number 4, Effective January 1, 2005
                                 (Audit # 20051C0244)

 The Defense Contract Audit Agency (DCAA) examined the contractor’s revised disclosure
 statement to determine whether the contractor’s revision number 4, effective January 1, 2005,
 adequately describes the cost accounting practices the contractor proposes to use in performing
 Federal Government contracts and whether the revised practices comply with applicable Cost
 Accounting Standards and Federal Acquisition Regulation1 Part 31.
 According to the DCAA, the subject revision adequately describes the contractor’s revised cost
 accounting practices. The practices as described comply with applicable Cost Accounting
 Standards and Federal Acquisition Regulation Part 31 and are consistent with the contractor’s
 actual practices. The DCAA considers the contractor’s accounting system generally acceptable
 for accumulating, reporting, and billing costs on Federal Government contracts. The DCAA is
 currently performing an updated review of the accounting system and related internal controls.




 1
     48 C.F.R. pt 1-53 (2002).
               Report on the Audit of Adequacy and Compliance of Disclosure
                 Statement Revision Number 4, Effective January 1, 2005



The information in this report should not be used for purposes other than those intended without
prior consultation with the Treasury Inspector General for Tax Administration regarding their
applicability.
If you have any questions, please contact me at (202) 622-8500 or John R. Wright, Director, at
(202) 927-7077.


Attachment




                                                                                                   2
                                    NOTICE:
The Office of Inspector General for Tax Administration has no objection to the release of
this report, at the discretion of the contracting officer, to duly authorized representatives
of the contractor.
The contractor information contained in this report is proprietary information. The
restrictions of 18 U.S.C. § 1905 must be followed in releasing any information to the
public.
This report may not be released without the approval of this office, except to an agency
requesting the report for use in negotiating or administering a contract with the
contractor.
